<html>
<title> - [H.A.S.C. No. 113-96] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2015 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED THIRTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 113-96]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2015

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

                      DEPARTMENT OF DEFENSE FISCAL

                    YEAR 2015 SCIENCE AND TECHNOLOGY

                     PROGRAMS: PURSUING TECHNOLOGY

                       SUPERIORITY IN A CHANGING

                          SECURITY ENVIRONMENT

                               __________

                              HEARING HELD
                             MARCH 26, 2014
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

87-859                         WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office, http://bookstore.gpo.gov For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office, Phone
  (202) 512-1800, or 866-512-1800 (toll-free), E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ef889f80af8c9a9c9b878a839fc18c8082">[email&#160;protected]</a>
  
                                     
  
  
  
  
  
  
  
  
  
  
  
  


    SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS AND CAPABILITIES

                    MAC THORNBERRY, Texas, Chairman

JEFF MILLER, Florida                 JAMES R. LANGEVIN, Rhode Island
JOHN KLINE, Minnesota                SUSAN A. DAVIS, California
BILL SHUSTER, Pennsylvania           HENRY C. ``HANK'' JOHNSON, Jr., 
RICHARD B. NUGENT, Florida               Georgia
TRENT FRANKS, Arizona                ANDREE CARSON, Indiana
DUNCAN HUNTER, California            DANIEL B. MAFFEI, New York
CHRISTOPHER P. GIBSON, New York      DEREK KILMER, Washington
VICKY HARTZLER, Missouri             JOAQUIN CASTRO, Texas
JOSEPH J. HECK, Nevada               SCOTT H. PETERS, California
                 Kevin Gates, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                          Julie Herbert, Clerk
  
  
  
  
  
  
  
  
  
  
  
  
                           C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Wednesday, March 26, 2014, Department of Defense Fiscal Year 2015 
  Science and Technology Programs: Pursuing Technology 
  Superiority in a Changing Security Environment.................     1

Appendix:

Wednesday, March 26, 2014........................................    27
                              ----------                              

                       WEDNESDAY, MARCH 26, 2014
DEPARTMENT OF DEFENSE FISCAL YEAR 2015 SCIENCE AND TECHNOLOGY PROGRAMS: 
   PURSUING TECHNOLOGY SUPERIORITY IN A CHANGING SECURITY ENVIRONMENT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Intelligence, Emerging Threats 
  and Capabilities...............................................     1
Thornberry, Hon. Mac, a Representative from Texas, Chairman, 
  Subcommittee on Intelligence, Emerging Threats and Capabilities     1

                               WITNESSES

Klunder, RADM Matthew L., USN, Chief of Naval Research, U.S. Navy     5
Miller, Mary J., Deputy Assistant Secretary of the Army for 
  Research and Technology, U.S. Army.............................     3
Prabhakar, Dr. Arati, Director, Defense Advanced Research 
  Projects Agency, Department of Defense.........................     8
Shaffer, Alan R., Acting Assistant Secretary of Defense for 
  Research and Engineering, Department of Defense................     2
Walker, Dr. David E., Deputy Assistant Secretary of the Air Force 
  for Science, Technology and Engineering, U.S. Air Force........     7

                                APPENDIX

Prepared Statements:

    Klunder, RADM Matthew L......................................    80
    Miller, Mary J...............................................    55
    Prabhakar, Dr. Arati.........................................   128
    Shaffer, Alan R..............................................    31
    Walker, Dr. David E..........................................    96

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Thornberry...............................................   151

Questions Submitted by Members Post Hearing:

    Mr. Peters...................................................   162
    Mr. Thornberry...............................................   155


DEPARTMENT OF DEFENSE FISCAL YEAR 2015 SCIENCE AND TECHNOLOGY PROGRAMS: 
   PURSUING TECHNOLOGY SUPERIORITY IN A CHANGING SECURITY ENVIRONMENT

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                   Subcommittee on Intelligence, Emerging  
                                  Threats and Capabilities,
                         Washington, DC, Wednesday, March 26, 2014.
    The subcommittee met, pursuant to call, at 2:52 p.m., in 
room 2212, Rayburn House Office Building, Hon. Mac Thornberry 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM 
TEXAS, CHAIRMAN, SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Thornberry. The hearing will come to order. Thank you 
all for your patience. It is inevitable that whenever this 
subcommittee has a hearing scheduled,that is when votes will be 
on the floor. It happens every single time. But I do appreciate 
y'all bearing with us. We will have votes again in roughly an 
hour and a half or so, so we will need to move as expeditiously 
as we can. And with that in mind, I am going to forego any 
opening statement.
    Yield to the distinguished gentleman from Rhode Island for 
any comments he would like to make.

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
  RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON INTELLIGENCE, 
               EMERGING THREATS AND CAPABILITIES

    Mr. Langevin. Thank you, Mr. Chairman. I just want to 
welcome our witnesses here today. And given the time concerns, 
I will follow your lead, Mr. Chairman. I will forego my opening 
statement.
    I will submit it for the record.
    Mr. Thornberry. I thank the gentleman. And without 
objection, all of your written statements will be made part of 
the record, and you will all have a chance to summarize your 
comments, if you don't mind.
    And, Mr. Shaffer, please lead off.

  STATEMENT OF ALAN R. SHAFFER, ACTING ASSISTANT SECRETARY OF 
  DEFENSE FOR RESEARCH AND ENGINEERING, DEPARTMENT OF DEFENSE

    Mr. Shaffer. Well, you know, it is always wonderful being 
the chief technology officer of the Department and not knowing 
how to operate these things.
    [Laughter.]
    Mr. Shaffer. Chairman Thornberry, Ranking Member Langevin, 
members of the committee, I am pleased to come before you today 
to testify about the fiscal year 2015 Department of Defense 
[DOD] science and technology [S&T] program. I am also proud to 
be here to represent the 100,000 scientists and engineers in 
the Department, a workforce that has had remarkable 
achievements in the past, but is now a workforce showing the 
early stages of stress.
    The collective impact of the 2013 civilian furlough and 
program curtailment, the October 2013 government shutdown, and 
the indirect impacts of the sequester--such as restrictions on 
our young scientists and engineers attending technical 
conferences and reductions in hiring new scientists and 
engineers--has impacted the health of our workforce and the 
programs they execute in ways that we are just beginning to 
understand.
    We have begun to address these challenges and know we will 
defeat them, but they do remain a concern. The fiscal year 2015 
budget request for science and technology is relatively stable. 
The DOD S&T request is $11.5 billion, compared to a 2014 
appropriation of $12 billion. The request represents a 4 
percent decrease in the Department's S&T program compared to a 
flat RDT&E [research, development, test and evaluation] budget 
request.
    While we continue to execute a balanced program, there are 
factors that led Secretary Hagel to conclude, in his February 
24 fiscal year 2015 budget rollout, that the development and 
proliferation of more advanced military technologies by other 
nations means that we are entering an era where American 
dominance on the seas, in the skies, and in space can no longer 
be taken for granted. The Department is in the third year of a 
protracted and rapid top-line and RDT&E budget drawdown.
    As highlighted by the Secretary, there are three major 
areas that compromise the Department's budget: force size, 
readiness, and modernization. The current budget is driving a 
force-size reduction, but this reduction will take several 
years to yield significant savings. In the fiscal year 2015 
budget, readiness and/or modernization will pay a larger 
percentage of this reduction bill. Our technological 
superiority is challenged by increasingly sophisticated 
military capabilities rapidly emerging around the globe.
    Within a fiscally constrained environment, our 
modernization efforts are focused on the enablers that keep our 
military equipment technologically superior to the emerging 
threat. Accordingly, we developed a strategy for the research 
and engineering program whereby we invest in research and 
engineering for three reasons. The first is to mitigate new and 
emerging threat capabilities. We see significant need in 
electronic warfare, cyber activities, counter-weapons of mass 
destruction, and preserving space capabilities in a contested 
space environment.
    The second is to affordably enable new or extended 
capabilities in existing and new military platforms. We see 
significant need for systems engineers, modeling and 
simulation, and an expansion in prototyping efforts across the 
Department. The third reason we invest in research and 
engineering is to develop technology surprise. We see 
significant opportunities to advance our technologies in 
autonomy, human systems, quantum sensing, and big data. We have 
a balanced program that is yielding significant innovation 
across the DOD. DARPA [Defense Advanced Research Projects 
Agency] continues to deliver new capabilities that will allow 
the DOD to stay technologically advanced, and Dr. Prabhakar 
will detail some of these programs.
    But we are also seeing groundbreaking capability 
developments in the services and agencies. Whether it is the 
first operational deployment of a laser system on the USS Ponce 
or the development of the future helicopter in the Army's joint 
multi-role helicopter demonstration, or the first-ever 
demonstration of an air-breathing hypersonic system such as 
accomplished by the Air Force's X-51 missile last year, the 
Department's S&T program continues to deliver.
    The last year has been challenging to the Department's S&T 
program. The risk to our force is growing, and the need for the 
science and technology community, and delivery, is likewise 
increasing. While the challenges are increasing, the Department 
as a whole recognizes the need to maintain technological 
superiority as a cornerstone of the future force. We still have 
the best military, defense industrial base, and laboratory and 
university research systems.
    However, instability and effects of the Budget Control Act 
and the near-term lack of balance between force structure, 
readiness, and modernization will increase the risk to our 
future force.
    Thank you, sir.
    [The prepared statement of Mr. Shaffer can be found in the 
Appendix on page 31.]
    Mr. Thornberry. Thank you.
    Ms. Miller.

STATEMENT OF MARY J. MILLER, DEPUTY ASSISTANT SECRETARY OF THE 
          ARMY FOR RESEARCH AND TECHNOLOGY, U.S. ARMY

    Ms. Miller. Chairman Thornberry, Ranking Member Langevin, 
and distinguished members of the subcommittee, thank you for 
this opportunity to discuss the Army's science and technology 
program for fiscal year 2015. After 13 years of persistent 
conflict, the United States finds itself in a familiar 
situation, facing a declining defense budget and a strategic 
landscape that continues to evolve. Given the budget downturn 
within the Department of Defense, the Army has been compelled 
to face some difficult choices.
    As Mr. Shaffer noted, we must balance between force 
structure, operational readiness, and modernization to maintain 
a capable force able to prevent, shape, and win any engagement. 
The Army will adapt, remaining an ever-present land force 
unparalleled throughout the world. As a result of these 
difficult budget decisions, however, we face a situation where 
modernization will be slowed over the next 5 years. New 
programs will not be initiated as originally envisioned, and 
the Army's science and technology enterprise will be challenged 
to better prepare for the programs and capabilities of the 
future.
    There is an old saying that my boss, Ms. Shyu, the Army 
acquisition executive, likes to use when explaining the Army's 
modernization strategy. ``The best time to plant a tree was 20 
years ago. The second-best time is today.'' And as we draw down 
forces from Afghanistan, today is the best time to plant seeds 
for the Army of the future. This is not a new concept. At the 
end of all major conflicts, we begin to focus on preparing for 
what is next.
    Perhaps the most successful example of planting future 
seeds is found at the end of the Vietnam conflict, where the 
Army focused on developing the big five--Abrams, Bradley, Black 
Hawk, Apache, and Patriot--platforms that still dominate the 
fight today. It is this mindset that led the Army leadership to 
protect our S&T investment, their seed corn for the future. 
Despite these great budget challenges, much trust has been 
placed in our Army S&T community.
    When I testified to this committee last year, I spoke about 
an initiative to generate a comprehensive modernization 
strategy that would facilitate informed strategic decisions, 
based on long-term objectives, within a resource-constrained 
environment. I am happy to report that this new process has 
been extremely beneficial for the Army, and is a process we 
have continued. The long-term look over the next 30 years was 
exceptionally powerful in facilitating the strategic decisions 
made within the Army as we built the fiscal year 2015 
President's budget.
    It allowed the Army leadership to make tough program 
decisions based on providing the most capability to our 
soldiers, knowing that in some cases that meant delaying 
desired capabilities. Last year, I also discussed the need for 
flexibility to balance across our investment portfolios. For 
fiscal year 2015, we were allowed to do this. It made a 
critical difference in the Army strategy, allowing us to make a 
deliberate increase in our advance technology demonstration 
funding--budget activity three--from previous years.
    This is essential as the Army looks to its S&T community to 
conduct more technology demonstration and prototyping 
initiatives that will focus on maturing technology, reducing 
program risk, defining realistic requirements, and conducting 
experimentation with soldiers to both refine new capabilities 
and develop new operational concepts. The S&T community will be 
challenged to bring forward not only new capabilities, but 
capabilities that are affordable for the Army of the future.
    You will see that the Army S&T portfolio is increasing 
emphasis on research areas that support the next generation of 
combat vehicles; A2/AD [anti-access/area denial] technologies, 
such as Assured Position, Navigation, and Timing; soldier 
selection tools and training technologies; and long-range 
fires. We are also increasing vulnerability assessment 
investments, red-teaming our technologies, our systems, and 
systems of systems to identify potential vulnerabilities, 
including performance degradation in contested environments, 
interoperability, adaptability, and training in ease of use.
    None of this would be possible without the world-class 
cadre of over 12,000 scientists and engineers that make up the 
Army science and technology enterprise. Despite this current 
environment of unease within the government civilian 
workforce--exacerbated over this past year--we continue to have 
an exceptional workforce. They are up to the challenge that the 
Army has given to them.
    This is an interesting, yet challenging, time to be in the 
Army. Despite this, we remain an Army that is looking towards 
the future while taking care of our soldiers today. I hope that 
we can continue to count on your support as we move forward.
    Thank you again for all that you do for our soldiers.
    [The prepared statement of Ms. Miller can be found in the 
Appendix on page 55.]
    Mr. Thornberry. Thank you.
    Admiral.

   STATEMENT OF RADM MATTHEW L. KLUNDER, USN, CHIEF OF NAVAL 
                      RESEARCH, U.S. NAVY

    Admiral Klunder. Chairman Thornberry, Ranking Member 
Langevin, subcommittee members, it is an honor to be here today 
to report on science and technology efforts in the Department 
of the Navy and discuss how the President's 2015 budget request 
supports the Navy and Marine Corps.
    We use science and technology to enable our Navy and Marine 
Corps team to maintain the technological edge necessary to 
prevail in any environment where we are called to defend U.S. 
interests. We work with the Secretary of the Navy, the Chief of 
Naval Operations [CNO], and the Commandant of the Marine Corps 
to balance the allocation of resources between near-term 
innovation and long-term leap-ahead research.
    Our goal is to improve our warfighting capability to 
counter increasingly complex threats in this uncertain 
environment, while at the same time addressing affordability in 
a serious way with our systems. Beginning with the evolution of 
current systems, through incremental, spiral development of 
current technology, we move toward exploiting yet-to-be-
discovered, disruptive, game-changing technologies. The Naval 
S&T Strategic Plan guides our investments and is regularly 
updated by Navy and Marine Corps leadership to validate 
alignment of S&T with current and future missions, priorities, 
and requirements, and ensures that S&T has long-term focus, 
meets near-term objectives, and makes what we do clear to 
decisionmakers, partners, customers, and performers.
    The S&T plan that I just referred to is currently under 
review and will be updated in the very near future. We fully 
understand that anti-access/area denial threats continue to 
increase. Cyberwar challenges will also increase and become 
more complex. These problems are not easy to solve, but we are 
making progress. And as I said last year, we want to get away 
from using $3 million weapons to defeat $50,000 threats.
    We have weapons in development and being fielded here 
currently that will allow us to reverse that asymmetrical cost 
advantage currently held by some of our adversaries. These are 
not pie-in-the-sky science projects. These are being tested, 
they work. I invite you and your staffs to get hands-on 
experience and see them for yourselves. I know some of you have 
been down there already, but certainly at the Naval Surface 
Warfare Center at Dahlgren, the Naval Research Laboratory [NRL] 
here in Anacostia, where our world-class scientists and 
civilian employees are making those things happen.
    The bottom line is, we are constantly transitioning the 
results of Discovery and Invention applied research into 
fielding prototype weapons, and acquisition programs of record. 
We were commended for the way we do it by the 2013 Government 
Accountability Office report cited in my testimony. But it is 
not enough to build and transition effective systems. We need 
to be extremely affordable.
    An ongoing example of our success is the Laser Weapon 
System, part of our solid state laser maturation effort. We 
feel energy weapons, specifically directed energy weapons, 
offer the Navy and the Marine Corps game-changing capabilities 
in speed-of-light engagement, deep magazines, multi-mission 
functionality, and affordable solutions. Laser weapons are very 
low engagement costs--right now, we are literally under a U.S. 
dollar per pulsed energy round--which is critical in our 
current fiscal environment.
    They are capable in defeating adversarial threats, 
including fast boats, UAVs [unmanned aerial vehicles] and other 
low-cost, widely available weapons. Now, our Laser Weapon 
System--again, referred to as LaWS--leverages advances in 
commercial technology for use in a rugged, robust prototype 
weapon capable of identifying, illuminating, tracking, and 
lasing enemy surface and air threats. The Navy is installing 
this LaWS system on board the USS Ponce in the Arabian Gulf 
this year; this summer, to be exact.
    That harsh and operationally important environment will 
provide an ideal opportunity to evaluate long-term system 
performance. We believe that LaWS has every potential for 
extraordinary success in field--terms of fielding an effective, 
affordable weapon for our sailors and Marines.
    An electromagnetic railgun is also similarly poised to 
provide game-changing disruptive capability for our long-range 
attack ballistic missile, cruise missile defense in anti-
surface warfare against ships and small boats.
    Fired by electric pulse, railgun has the potential to 
launch projectiles over 110 nautical miles. With this 
projectile development underway, and barrel life on a path to 
1,000 shots, we feel very strong about this capability. Current 
research is focused on a rep rate, repetition rate, capability 
of multiple rounds per minute, which entails development of a 
tactical prototype barrel and pulse power system incorporating 
advanced cooling techniques. Developmental tests right now are 
ongoing at Naval Surface Warfare Center Dahlgren and at NRL, 
along with evaluation and integration of new and existing naval 
platforms.
    And this might be new news, but the railgun testing, we are 
going to do that on board a JHSV, Joint High Speed Vessel, in 
2016. We will continue to duplicate these kinds of successes in 
other S&T areas with our innovative research and disruptive 
thinking, always trying to make our existing systems more 
effective and more affordable while improving transition to 
acquisition programs.
    Our research is exhilarating and unpredictable. We balance 
a range of complementary but competing research initiatives by 
supporting advances in established operational areas, while 
sustaining far-reaching long-term efforts to provide disruptive 
operational concepts.
    Thank you again for your support, and I look forward to 
answering any of your questions.
    [The prepared statement of Admiral Klunder can be found in 
the Appendix on page 80.]
    Mr. Thornberry. Thank you.
    Dr. Walker.

STATEMENT OF DR. DAVID E. WALKER, DEPUTY ASSISTANT SECRETARY OF 
THE AIR FORCE FOR SCIENCE, TECHNOLOGY AND ENGINEERING, U.S. AIR 
                             FORCE

    Dr. Walker. Chairman Thornberry, Ranking Member Langevin, 
members of the subcommittee and staff, I am pleased to have the 
opportunity to provide the testimony on the fiscal year 2015 
Air Force Science and Technology Program.
    Globalization and the proliferation of technology mean we 
face threats across a wide spectrum and competition across all 
domains. As stated by our chief of staff, in the Global 
Vigilance, Global Reach, Global Power Vision, quote: ``Despite 
the best analysis and projections by the national security 
experts, the time and the place of the next crisis are never 
certain and are rarely what we expect,'' unquote.
    Success and a guarantee of security in this dynamic 
environment require that we take lessons learned from the last 
decade of conflict, and creatively visualize future strategic 
landscape. In this space between the learning from the past and 
keeping an eye open on the future is where we find opportunity 
in the S&T environment. Air Force scientists and engineers 
continue to evolve and advance game-changing and enabling 
technologies which will transform the landscape of how we fly, 
fight, and win against high-end threats in the contested 
environments.
    In close coordination with the requirements, intelligence, 
and acquisition communities, we have structured the Air Force 
2015 Science and Technology Program to address the highest 
priority needs of the Air Force across the near-, mid-, and 
far-term, execute a balanced and integrated program that is 
responsive to the Air Force core missions, and to advance 
technical competencies needed to address future research 
thrusts.
    Our forthcoming update for the Air Force S&T strategy 
focuses on investing in S&T for the future, as well as 
leveraging our organic capacity, the capacity of our partners 
both domestic and international, integrating existing 
capabilities, and to mature technologies into innovative, 
affordable, and sustained solutions. This flexible strategy 
provides us the technological agility to adapt our S&T program 
to the dynamic, strategic, budgetary, and technology 
environments that will shape prioritized, actionable S&T plans 
of the future.
    It also guides our development of a strong STEM [science, 
technology, engineering, and mathematics] workforce and 
investment in our laboratory infrastructure to support the 
future research. The Air Force as a whole had to make difficult 
trades between force structure, readiness, and modernization in 
the service's fiscal year 2015 President's budget submission to 
recover from the budget uncertainties that we have had over the 
past few years. The Air Force fiscal year 2015 budget request 
for S&T is approximately $2.1 billion.
    This year's S&T budget request represents a 6.2 percent 
decrease from our fiscal year 2014 President's budget request. 
However, when you compare this to the overall RDT&E decrease 
the Air Force had to take in the balance, which was about 9 
percent, the Air Force S&T actually fared very well in the Air 
Force planning and programming process. Our budget request 
rebalances basic research spending as part of the overall 
portfolio to increase emphasis on conducting technology 
demonstrations.
    It also emphasizes our efforts in game-changing 
technologies of hypersonics, autonomy, directed energy, and 
fuel-efficient propulsion technologies, which can affordably 
provide us necessary range, speed, and lethality for operations 
in highly contested environments, as outlined in the 2014 
Quadrennial Defense Review. More information about these 
efforts and our investments in enabling technologies is 
described in my written statement, provided for the record.
    In closing, I firmly believe that maintaining and even 
expanding our technological advantage is vital to ensuring the 
assured access and freedom of action in the air, space, and 
cyberspace. The focused and balanced investment in the Air 
Force fiscal year 2015 S&T program are hedges against an 
unpredictable future, and provide pathways to a flexible, 
precise, and lethal force at a relatively low cost in relation 
to the return on the investment.
    On behalf of the dedicated scientists and engineers of the 
Air Force Science and Technology enterprise, I want to thank 
you again for the opportunity to testify today. And thank you 
for your continued support of the Air Force S&T program.
    [The prepared statement of Dr. Walker can be found in the 
Appendix on page 96.]
    Mr. Thornberry. Thank you.
    Dr. Prabhakar.

 STATEMENT OF DR. ARATI PRABHAKAR, DIRECTOR, DEFENSE ADVANCED 
        RESEARCH PROJECTS AGENCY, DEPARTMENT OF DEFENSE

    Dr. Prabhakar. Thank you, Mr. Chairman, Mr. Langevin. And 
thanks to all of you for the chance to be here along with my 
colleagues today.
    DARPA is part of this DOD S&T community. We are also part 
of the larger national R&D [research and development] 
ecosystem. Within those communities, DARPA has a particular 
role. And that role is to make the pivotal early investments 
that change what is possible so that we can take big steps 
forward in our national security capabilities. And that mission 
has not changed over our five and a half decade history as an 
agency.
    But, of course, the world that we are living in has 
changed, and changed in that period. So what is going on today, 
as you well know, today we face a very wide variety of national 
security threats. We are dealing with challenges from nation-
states, but also networked terrorism. All of those actors today 
have access to very powerful technologies around the world.
    And then here at home, we are watching the growing cost of 
our operational military systems. And that, too, poses a threat 
to our future security. So there is quite a lot on our plates. 
I would like to just briefly mention work across three 
different areas in our portfolio to give you a sense for some 
of the things we are doing about these challenges.
    First, today we see that the classic approach to these 
complex military systems leads us to a place where these 
systems are so costly and inflexible that they are really not 
going to serve our needs for the next generation. So in the 
DARPA portfolio today you will find work that we are doing to 
come up with new techniques that are scalable approaches, for 
example, to dynamically controlling the electromagnetic 
spectrum. And you will see work in new distributed cooperative 
effects that we think can be a powerful part of the next 
generation of air dominance. Just two examples across a broad 
set of things that we are doing in this big bin of rethinking 
complex military systems.
    In a second area, we can see the information revolution 
unfolding across every aspect of military operations. And today 
at DARPA, we are creating a new set of cyber security 
capabilities that will allow us to trust the information that 
we use. We are also inventing the new tools that let us get a 
handle on this explosion that is happening with data so that 
instead of drowning in the data we can actually get deep 
insights out of all of that information out there.
    And then in a third area, we look at what is bubbling in 
research. And we see biology today starting to intersect with 
engineering. And in that research, we are seeing the seeds of 
technological surprise. So part of our work at DARPA today is 
making the investments to create new capabilities in areas like 
synthetic biology and neurotechnology. So just a few examples 
of the things that we are doing today.
    I also just want to take a minute to talk with you about 
what it takes for us to do that work and to deliver on our 
mission. Your support across the board here has been critical. 
First, with respect to our people, we continue to use the 1101 
flexible hiring authority that this committee has helped with 
the legislation on that, starting a number of years ago. It has 
actually become critically important to our ability today to 
recruit the next set of people that have the potential to 
become great DARPA program managers.
    Secondly, let me turn to the budget. The President's budget 
request for DARPA in fiscal 2015 is $2.9 billion. The backdrop 
for that number is that our budget declined about 20 percent on 
real terms between 2009 and 2013. That includes the 8 percent 
sequestration hit in fiscal 2013. That downward slide stopped 
in fiscal 2014 and we had a slight restoration. About half the 
sequestration cut was restored in the 2014 appropriations.
    I greatly appreciate the support from this committee that 
was part of making that possible. It is making a real 
difference this fiscal year. The President's budget continues 
that very slight restoration process, bringing us almost back 
to where we were before the sequestration. So, again, I will 
ask for your support of that request.
    Let me just end by saying that when I talk to our senior 
leaders in the Pentagon and here on Capitol Hill, I can see the 
weight of our national security challenges on them. I see that 
on you, and we all feel it ourselves.
    We do live in a volatile world. We all see the growth and 
the proliferation of threats. We are dealing with constrained 
resources. But I also know that American innovation has turned 
the tide time and again. And I am confident that our efforts 
today can do that for the years to come, as well. So thank you 
again for your support. We can't do that work without it.
    And I am very happy to answer questions, along with my 
colleagues.
    [The prepared statement of Dr. Prabhakar can be found in 
the Appendix on page 128.]
    Mr. Thornberry. Thank you. Innovation can turn the tide if 
we let it. On the other hand, sometimes we have a way of 
getting in the way of things.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank all 
of our witnesses for your testimony today, and the just 
extraordinary and very important work that you all are doing. I 
have had the opportunity to meet with most of you pretty 
regularly, and I always appreciate the updates and the progress 
that you are making.
    So let me start with this. It is my understanding that the 
High Energy Laser-Joint Technology Office budget was supposed 
to be restored in fiscal year 2015, after a 2-year reduction 
directed to assist the Air Force hypersonics program. The 
fiscal year 2015 budget does not reflect the restoration to 
approximately $68 million. Can you explain the rationale for 
this decision?
    Mr. Shaffer. Yes, sir. I will start, and I will let Dr. 
Walker finish. A lot of it got caught up in the overall budget 
reductions in 2015 that we had to deal with. But I don't look 
at the funding for high energy lasers in a vacuum of one 
particular program at the Joint Technology Office, but rather 
in the totality. And we have had remarkable progress, led not 
by the Joint Technology Office's money, but by their leadership 
in bringing together and knitting together the science and 
technology high energy laser programs of the Department.
    And I think it is significant that this office, working 
with each of our S&T execs and with DARPA, have knitted 
together an integrated science and technology program that has 
led to--as you heard from Admiral Klunder--the deployment of a 
30 kilowatt laser on the USS Ponce this summer. It has led to 
the development of what will eventually be a 100 kilowatt--
currently, I think it is 10 kilowatt, Mary?--high energy laser 
mobile demonstrator for the Army that had a very, very 
successful demonstration at White Sands last December. I think 
it acquired somewhere around 88 out of 92 targets, something 
along that lines.
    The Air Force is working on developing packaging and sizing 
of high energy lasers to go on their future fighter force to 
defend against incoming missiles. All of that was enabled by 
the Joint Technology Office. Not the money that they had, but 
rather the leadership that they showed. And I am very familiar 
with the people in that office.
    Whether it is $68 million or $50 million, they are going to 
continue to show the leadership. And our overall investment in 
science and technology and high energy lasers across the 
Department is relatively stable. We can get the numbers for you 
and provide those to you. But high energy laser research is 
funded out of a number of programs in the Army, in the Navy, in 
the Air Force, and in DARPA. DARPA is doing remarkable things 
to drive up the efficiency of the electric lasers.
    Dave, do you want to add anything else to that?
    Dr. Walker. No, what Mr. Shaffer says is exactly right. The 
program was funded to the level that we felt was necessary to 
continue the technology and support the joint services in 
developing lasers. However, the Air Force had budgetary 
pressures on it that didn't allow us to bring it back up to the 
full level that we wanted to. So everything took about a 6 
percent reduction as we went through this fiscal year 2015, 
with things returning as we move into 2016 and beyond.
    Mr. Langevin. Well, let me ask the question a different 
way. Then are we right-sized with our budget with respect to 
directed energy right now? Or are we experiencing shortfalls 
that are hindering progress going forward on directed energy 
development weapons?
    Dr. Walker. Given the funding available, I believe the 
program is right-size given the year that we are in right now.
    Mr. Langevin. Well, let me turn to, so, another area then. 
And I am going to obviously follow this very closely. But I 
note that there were many mentions made in today's testimony on 
the need about--for robust STEM pipeline and the need to ensure 
that today's youth bring their talents to the national security 
arena. I find this hard to square with the proposed reduction 
in the National Defense Education Program [NDEP] to roughly 
half of its fiscal year 2014 level.
    Can you elaborate on this decision, and can you provide an 
update on other relevant programs within the Department's 
purview, particularly those that reach K through 12 students?
    Mr. Shaffer. Yes, sir. Regrettably, that program is mine. 
So let me first address your first question in the reduction in 
the National Defense Education Program. First, that program 
previously had been made up of three separate projects, the 
first funding K through 12 education across the Department. And 
that was, order of magnitude, $12 million to $15 million. It 
floated up and down.
    The second part of that program was a project called the 
National Science and Engineering Security Fellows Program. I 
made the decision to move that project from the office that it 
had been operated out of to our basic sciences office. The 
funding is still there, the project is still there, it is still 
doing the very same things. I just moved it from one program to 
another.
    The third part of NDEP is the Science, Mathematics and 
Research for Transformation, or SMART, program. That is our 
program for service for scholarship. Effectively, we pay for 
undergraduate and graduate degrees, and then hire those people 
into our laboratories on a one year for one year scholarship-
paid basis. In fiscal year 2015, we expect to have the same 
number of SMART scholars as we have in previous years.
    So we have had no reduction in that part of the program. I 
moved another part of the program to another program element. 
And now you asked about the K through 12. The administration 
made the decision to streamline Federal education in certain 
areas. And part of that decision and part of that action was to 
move K through 12 funded efforts, with very few minor 
exceptions, to Department of Education.
    So the funding that had been allocated for the K through 12 
part in the National Defense Education Program was reallocated 
in the fiscal year 2014--or 2015 budget to Department of 
Education. And that is the simple part of the story. We are 
still trying to go out and use our scientists and engineers to 
stay contacted to K through 12. We are supporting the America 
First science event at the Washington Convention Center in 
April. So we are still outreached on K through 12, but the bulk 
of the funding was moved to Department of Education, sir.
    And now I will turn it over to my colleagues to talk about 
their parts.
    Ms. Miller. So the Army was one of the exceptions. We did 
not lose our K through 12 Army Educational Outreach Program 
when they collected up the STEM programs and moved them out of 
the Department of Defense. And we find that it has been a very 
great value to the Army. It is doing outreach, and preparing 
children to understand the needs and importance of STEM. We 
interact with our laboratories, give them mentors and help 
bring them through that pipeline.
    We bring them into the laboratories, where we can, to give 
them opportunities to understand technology as it applies to 
the Army. But we know that even if they don't choose to ever 
work for the Army, they certainly are informed and help the 
Army when they go to industry itself. One of the things that we 
have done in our program--and, we believe, helped to forestall 
it being taken away from the Department of Defense, too--is, we 
put in a process to have the quality of our program be assessed 
independently.
    And we do have a contract in place with Virginia Tech that 
does look at our program and establishes how well we are 
effectively reaching these younger students. So we are 
certainly a proponent of this. We believe it is important for 
the workforce of the future.
    Mr. Langevin. Well, why was it okay for the Army to keep 
its program, but other areas of DOD you have moved it out and--
to the Department of Education? My concern is that--and I am 
way over my time, and I will yield back after this. But my 
concern is that DOD loses its focus on preparing the next 
generation. And also leveraging the scientists and the 
capabilities that we have to really encourage our young people 
to go in this field and see that they are properly getting 
exposed to, and educated in the sciences.
    I do think that DOD has a role to play. I guess, you know, 
this is certainly a policy decision. But I am concerned by the 
move the Department has made.
    And I will stop there now.
    Mr. Shaffer. Sir, I would just like to say that it was an 
administration decision. It came down to us, we saluted, we 
executed. But I believe the Nation is well served by a 
Department of Defense that is in contact with our K through 12 
students.
    Mr. Langevin. Thank you, Dr. Shaffer.
    Mr. Thornberry. Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman. And I really want to 
echo some of the statements that Mr. Langevin made, particular 
in regards to--and I wasn't to go in this area, but on the STEM 
issue, I really do believe that we are better served. Not that 
Department of Education, I think it gets diluted. I think it is 
much more focused and much more directed in regards to what we 
are looking for for the future, whether it is DARPA or any of 
the services as it relates to innovation.
    And I worry about innovation. I have three sons that serve 
this country. So our sons and daughters need you, need all the 
things that you can design, develop to make it--the battlefield 
safer for them, give them the opportunity to come home. And, 
Admiral, I am really interested in--and I am interested in all 
of you as it relates to directed energy. Mr. Langevin and I, I 
think, are pretty big proponents of directed energy because of 
what you mentioned in regards to--on the Ponce, in regards to 
actually testing, and the ability to test and what it costs to 
test versus shooting a missile off at a million dollars a copy 
versus a dollar.
    Can you--we see programs in development stage. But then 
they tend to never make it to production, never make it to, you 
know, deployment. Where do we stand as it relates to that 
system on the Ponce in regards to the future?
    Admiral Klunder. Yes, sir. Thank you for the question. And 
I will offer that there is--it is really a conviction by our 
senior leadership in the Department of the Navy. And what I 
mean by that is that we want those new innovative systems to be 
in the hands of sailors and Marines. We want them to tell us 
did we develop it right, did we develop and it needs to be 
tweaked a little bit? Or did we develop and we just didn't do 
it right? And we will bring it back.
    But the point there is, you need to get a sailor or a 
Marine's hands on that thing, and tell them is it going to be 
effective in warfighting environment, and will it be 
affordable. So the point I would like to make, and thank you 
for your comments about innovation, we truly think that is the 
way this Nation was built and is the way we get in front of our 
adversaries. We don't want to run with them. I don't want a 
sailor or a Marine to ever go into a fair fight. I want them to 
always have the technological advantage so we always win and 
defend our Nation.
    What we have done this time on the Ponce, I think is very 
credible, is I don't have a bunch of--my scientists and my 
colleagues, we developed it. But I have got real sailors right 
down there at Dahlgren, right now, on the system. And it is not 
a singular laptop over in the corner somewhere. It is a fully 
integrated console with our fully integrated combat information 
system on that ship.
    So those young men and women on that--detachment of sailors 
are going to go out there. They are going to test it. And, 
indeed, we feel very comfortable because we have never missed 
so far. And that is one of the reasons why CNO Greenert said, 
``Matt, get it out there.'' We have never missed. We feel 
confident, though, that we would like to test it in that tough 
environment and see where it goes.
    And the follow-on to the last bit of your question, I think 
regardless of the High Energy Laser-Joint Technology Office, I 
can assure you that we have got all the resources positioned in 
the Navy and Marine Corps to put us in a good place when this 
test is done. And I am not sure if you are familiar, but we 
also have a solid state laser technology maturation program 
that takes it to a much higher power level, and that is in 
2016.
    So when we finish this test on Ponce, this demo with real 
sailors, and we finish up the prototyping in 2016, we think we 
will be very well positioned for follow-on, long-term, enduring 
efforts.
    Mr. Nugent. And I just don't want us to--we can be in a 
testing mode forever.
    Admiral Klunder. Yes, sir.
    Mr. Nugent. I mean, I think you might agree with that. And 
I would like to see us have at least a timeline as to when we 
want to have it operational. It goes back to CHAMP [Counter-
Electronics High Power Microwave Advanced Missile Project]. Mr. 
Langevin and I have talked about that. It goes back to programs 
as it relates to the Army, and I know there is some 
collaboration between the Army and the Navy on those issues. 
And from my standpoint, I think that is great when you can get 
bright minds across the lines, across those services, to 
utilize that same information and make us all safer.
    So my question back to you then is, if, after this test on 
the Ponce, if it meets the expectations, what would stand in 
your way of, if it is successful, in deploying that on other 
ships?
    Admiral Klunder. I would say, nothing. Right now, we have 
already started the AOA [analysis of alternatives] on that 
process, that we are very familiar with the acquisition 
programs. We have already done all the blueprinting for the 
different classes of ships. So in many cases, if we are 
successful we see this as a possible weapons system for a 
number of classes of our ships. And I think it is important, 
too, if I could just give my colleagues to my right here a 
great shout out. Because we are doing a test down in your great 
State here in just a few months here to do some joint Army-Navy 
testing down at Eglin. And so I think that, again, shows the 
collaborative effort we do on directed energy.
    Mr. Nugent. And I think that is commendable, and it saves 
the taxpayers money, and it makes all of us safer in the long 
run.
    So, Mr. Chairman, I yield back. And thank you so very much 
for all of your help.
    Mr. Thornberry. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. And thank you all for 
being here.
    I wonder--and certainly, Director Prabhakar, if you could 
perhaps address this. What other governmental institutions of 
science, technology really support your efforts? And you talked 
about the intersection of biology and science. I am thinking of 
the NIH [National Institutes of Health], but I am wondering, as 
well, of what else does that, or to what extent does the NIH?
    Dr. Prabhakar. I am very happy to try to answer that 
question because there is an answer for every aspect of our 
work. And let me start a little bit closer to home with much of 
what we do that goes directly into military systems. The folks 
at this table are the people that we work directly with. Our 
people are working together on a daily basis. Because for a lot 
of those advanced technologies we need to understand 
operational needs, we need to understand what is going on with 
R&D and S&T activities across the services.
    And then we--these are the people we end up working with to 
execute our programs and then to transition them. So that is 
one set of extremely important relationships.
    But you are absolutely right that all of us rely on this 
larger national ecosystem. In the biology area, which, to me, 
that is much more of a research field, where we are just 
starting to find these new opportunities to build the kinds of 
technology capabilities that we need for national security. So 
we are--you know, it is a very different stage of maturity.
    But absolutely, there, over and over again--whether it is 
work that we are doing on brain function research or on 
infectious disease--we find that we are building on top of the 
basic research that is almost always funded by the National 
Institutes of Health, sometimes by the National Science 
Foundation. You know, there are many billions of research 
dollars that have laid that foundation. We want to come along 
and find the places where we can build national security 
capabilities on top of it.
    Mrs. Davis. Are there real differences about the way the 
labs produce in terms of the quality, the quantity of the 
research, as well? How do the defense labs compare to other 
industrial--other labs that we have?
    Dr. Prabhakar. Yes. You know, to me, the starting point is 
to recognize that it is an ecosystem. And all these different 
entities--the performers of the research, and then the funders 
of the research--each have their own role. So, you know, just a 
simple example. I was visiting AFRL [Air Force Research 
Laboratory] last September and, you know, our folks have been 
working together on a couple of hypersonics programs. But I got 
to see, first-hand, some of the unique capabilities in that 
laboratory.
    And that is exactly what you would expect, right? Where 
else would you expect to see fantastic hypersonics, leading 
edge understanding of this incredibly important, but very 
specialized technology? It should be at AFRL, and that is where 
you find it. But, you know, our work sometimes puts us in 
places where we want to be working directly with people in 
universities that are thinking about new ways to think about 
big data or some of these biology areas.
    Frequently, we need to tap into the small entrepreneurial 
community. For example, in cyber it is pretty hard to think you 
are going to make--turn the corner on cyber issues without 
tapping into what is happening in this vibrant ecosystem of 
entrepreneurship. Some of--you know, a lot of those people 
don't even think they are in the national security business, 
but they are important to us.
    Mrs. Davis. Absolutely. I am going to----
    Dr. Prabhakar. We try to tap all of those.
    Mrs. Davis [continuing]. Just shut you up a little bit 
because I don't have very much time.
    Dr. Prabhakar. All right.
    Mrs. Davis. Thank you. I appreciate your response. But I 
think, you know, it is true. I mean, there is all this 
interaction. And I guess sometimes we tend to be less than 
supportive of some of those other efforts. And when it comes to 
the NIH, I think, again, as we are facing decisions, budget 
decisions, we know that there is a tremendous--I think there is 
a tremendous interaction. And you have spoken to that.
    Even in San Diego, they just formed the Cyber Center of 
Excellence. And I think that--I would hope that we could look 
to those innovative--the energies, really, in communities that 
are doing great work. I want to mention just very briefly--
because I think we talked a little bit about innovation. And 
the importance of that, obviously, is very critical. And the 
shift to the Department of Education.
    I guess our job here, too--there is the America Competes 
Act. Something that should be reauthorized. It is sitting in 
the Science Committee and not going anywhere. So I think--I 
mean, Mr. Chairman, I would--I think this is a committee that 
really could have an opportunity to have a sense of what role 
can we play, how can we have some input into that so that 
perhaps we can take a look and get something in that area 
moving that really does exactly what we are trying to do here.
    And I hear, I think, from the response that nobody was 
probably, you know, jumping for joy that some of that came out 
of the military. And yet, on the other hand, I think we have to 
make it, I guess, understandable and usable, as well, 
throughout the school districts of our country. And how we can 
create that intersection, I think, is going to be important. 
And the America Competes Act is certainly one way to do that, 
where we improve and really do the best practices in terms of 
STEM education.
    So thank you so much. Thank you, Mr. Chair.
    Mr. Thornberry. Thank you.
    Mr. Shaffer, let me ask you. David Berteau with CSIS 
[Center for Strategic and International Studies] has made a 
point, and I want to see if you agree with it. His point is 
that in previous--all previous military buildups the R&D 
funding has gone up at least at the rate of the buildup, if not 
faster. So that when there is the inevitable decline after 
that, you have got this reservoir of R&D projects to draw upon. 
But he says since 9/11 we really didn't do that.
    The buildup went for intelligence and in operational 
things. We didn't have the big S&T, R&D buildup. And so this 
drawdown is even tougher because we don't have a reservoir from 
which to draw. Do you think that is true?
    Mr. Shaffer. To a partial extent, yes. I would have to go 
back and check the numbers. I think historically, when we have 
been a nation at war, actually the operations and maintenance 
accounts have risen faster than R&D. But S&T has come up a 
little bit. This last war we came up a little bit, and then 
went flat. I think there is a more important point, and we are 
trying to make this across the Department. And I think actually 
the best person who speaks about it is my boss, Under Secretary 
Kendall. And that is, R&D is not a variable cost.
    So you--it takes the same amount of money to develop a new 
capability or a new weapons system irregardless of the force 
size. So we have to start thinking, as a Department, that 
stability in the long-term and funding for S&T is more 
important than the wild fluctuations.
    And the 4 percent decline we had in fiscal year 2015, I 
can't tell you I like it. But I understand why we got there. 
Our job now is to protect against the out-years, and how do we 
make sure that there is enough money to maintain a viable S&T 
program that delivers new capabilities for the future force.
    Mr. Thornberry. Well, I think that is true. I just think it 
is interesting that, you know, I guess we are all glad that 
these accounts are not cut more than they are. But we shouldn't 
overestimate, at the same time, what comes of that.
    Let me back up kind of to what Mrs. Davis was talking 
about, and ask you all to respond briefly to this. As we have 
been talking about acquisition reform, obviously the swift pace 
of technology change is an enormous challenge. And actually, 
Dr. Prabhakar, you mentioned it earlier, too, how quickly 
things change.
    I guess one of the things I would like to know, just--and 
within our limited time, just briefly, how do you--and I will 
start with you and go backwards. How do you and your 
organization keep track of the technology change in research 
universities and in the private sector? Y'all were talking 
about cyber for example. To make sure that it is--that you are 
aware of those broader technology changes, and then can pick 
and choose where DOD interests may benefit?
    Dr. Prabhakar. I don't have a magic answer for you on that, 
except to say that I view that as integral to the job of each 
of our technical program managers. And, you know, when they 
come on board, as you know, they only are with us for typically 
about 3-5 years. My deputy, Steve Walker, and I have a custom 
of doing a brown bag lunch with the newest batch of program 
managers. And sit down and we talk with them, and one of the 
things we almost always talk about is how important it is to 
get out of your office in Arlington, Virginia, and go find what 
is happening in the technical arena.
    Because there are people that know about us and they will 
bring us their ideas, but that is not enough for us. We have to 
be getting out and seeing what else is happening. And it is 
usually either in universities, sometimes it is in the startup 
community. Sometimes there will be a ``skunkworks'' tucked in 
the corner of a big established company. But you have to get 
out and visit people and see what they are thinking about in 
their labs and in their offices.
    And I don't really know how to do it other than retail, but 
I find it essential to what we do.
    Mr. Thornberry. Thank you.
    Dr. Walker.
    Dr. Walker. The AFOSR [Air Force Office of Scientific 
Research] really has a mission in the Air Force of trying to 
reach out and find the best new ideas not only in the U.S., but 
internationally, as well. So having our offices spread across 
South America, Europe, and Asia allows us to reach out and find 
what are those good ideas and bring them into the U.S. to--for 
applications in the Air Force. In addition, within the U.S., 
the OSR program managers use their 6.1 dollars to go out and 
try to find innovative technologies and new basic research that 
they are able to apply, then, to Air Force problems.
    So to use that as a seedling to move technology along. And 
as Dr. Prabhakar says, it has got to be an engagement. It is 
not a sit at home and hope people come to you. It is you have 
got to be out there visiting the people, seeing what the new 
ideas are, and bringing those forward. In addition, as we move 
into the more traditional directorates, they all maintain a 
basic research and early applied research capability, where 
they are reaching out to academia and industry trying to 
identify where are the best new ideas.
    In addition to that, looking at the small business and 
where--through Small Business Innovative Research [SBIR] and 
other small business interactions that we have in the 
laboratory, really looking for those fresh new ideas. Putting 
out the calls. You know, a good example of this in our--both in 
our SBIR calls and in our RIF [Rapid Innovation Fund] calls. We 
have had 700, 800 people responding to these calls with new 
ideas that we are able to then pick the best of them and try to 
bring them forward for technologies for the Air Force.
    So we have had great success, and we are trying to continue 
to keep that aperture open as possible to find the new 
innovative research that is going on out there.
    Mr. Thornberry. Okay.
    Admiral, do you all ever, as an addendum, do you all ever 
go out to venture capital community and see that they are 
investing?
    Admiral Klunder. Absolutely. As a matter of fact, I like to 
call myself the venture capitalist of the Navy and Marine 
Corps. But to that point, Mr. Chairman, I won't repeat what 
Dave said, my colleague Arati, about the global look to--our 
eyes and ears are always open around America. That is academia, 
that is industry, that is laboratories. We are always looking. 
As a matter of fact, I will offer to you, the small grants, 
lots of seed corn, lots of petri dishes.
    The kind of things a young man or woman in academia can do 
for literally soda pop and pizza is unbelievable. Specifically 
in the cyber domain that I know you are concerned about. Very 
small grants can be very, very beneficial for the team.
    And I also offer--so America, we look globally, and we 
collaborate across all streams on these different offices. But 
something we have a distinct advantage, too, and it is 
specifically on cyber. Because I know, sir, you know. You wait 
a year or two, you have missed it.
    They are already--they have already flipped that technology 
on you, and you are beat. So our point is that in the world 
that we can live in for Mr. Kendall--even in the 5,000 series 
acquisition document, we know it is pretty thick--we have the 
advantage that we can do user operational evaluation systems. 
What does that really mean? It means prototypes, specifically 
in cyber, on a defensive or offensive side if it is in an 
operational context.
    But specifically defense and can we, indeed, bring that 
tool quickly, develop it quickly, get it out in prototype and 
see if it is going to be worthwhile. And then, if we have to, 
we go back and buy a number of them through Mr. Kendall in that 
acquisition process. The point I am trying to make is, we can't 
wait that traditional timeline to do cyber work. We need to be 
able to get that technology developed, out there, in a year or 
two.
    And that is something, I think, we have been able to do in 
my world, specifically, when I am able to control my 6.1, .2, 
and .3 dollars, sir.
    Mr. Thornberry. How often do you do that?
    Admiral Klunder. I do that a lot. And I do it for the Navy 
and Marine Corps. And we also work across agencies and other 
ones involved, sir.
    Mr. Thornberry. Thank you.
    Ms. Miller. Sir, like my colleagues we have the Army 
Research Office that does our outreach to academia. They are 
always looking for those bright ideas that they can fund 
through our grants to our Single Investigator Program. We also 
have the Army Research Lab, which has a considerable amount of 
basic research. They are people that work within the Army, 
understand how to leverage that technology that we find in 
academia, and make it work on behalf of the Army.
    As my colleagues, we also have our international technology 
centers. Most of the time we are colocated. And we do that 
global outreach to watch what is out there. The Army has 
established a capability that--they call it global tips online, 
where we see things that are international, good ideas from a 
technology perspective, and we put it on our Web site so that 
our Army researchers and our program managers can have access 
to that and figure out how to leverage it in the program.
    And I can't underestimate the value of our subject matter 
experts being able to go to scientific conferences to exchange 
and--good ideas, and talk about where we are going in research. 
And incite people to want to do that research on behalf of the 
military needs. And finally, I would say--and Mr. Shaffer may 
choose to talk about this--we also have the Defense 
[Innovation] Marketplace, which is a Web site that we allow 
industry to identify IRAD opportunities, individual--or 
independent research and development activities that they have 
ongoing that we can then leverage.
    And, in fact, from a service perspective we put out, for 
industry, what we are looking for, what capabilities we want 
for the future. All of this helps us to be able to leverage and 
find that research out there that we believe will be 
essentially important to the Army.
    Mr. Shaffer. Sir, my colleagues have all, I think, covered 
most of the points. We do have the Defense Marketplace. 
Seventeen percent of our budget actually goes out to 
universities, and we are in contact with universities. But I am 
not going to sit here and tell you that the picture is all 
rosy. As we went through the last year's budget, and we had 
travel restrictions placed upon our people and we did not allow 
our people, because of funding limitations, to go to technical 
conferences, we lost some contact.
    And we are just starting to understand the impact of that. 
We have to watch that. I have to watch that very closely, and 
work every day to tell the story of why our people have to go 
out and be engaged because that is a good business decision. 
But I will tell you, as we go through a budget drawdown things 
like travel are always watched very closely, and my colleagues 
have to go ahead and justify virtually every trip our young 
people want to make. That limits us.
    Mr. Thornberry. Okay, thank you.
    Mr. Langevin, you had a question?
    Mr. Langevin. Thank you, Mr. Chairman. So to our witnesses, 
I just want to just circle back to something I was going to 
raise in my opening statement, which I will now submit for the 
record. But there has been a steady crescendo of speculation 
about the coming wave of industry mergers and acquisitions. Are 
you confident in the Department's ability to maintain a 
competitive R&D environment, even through a potential 
contraction? And how would R&D concerns be addressed with any--
within any larger oversight process?
    Mr. Shaffer. I guess I will start. But I will look for help 
from anybody at the table. I am actually fairly comfortable 
that even if we have some contractions and mergers that there 
will be industry to take up the effort. Now, I think that we 
may see a change. We may have to go more of a mix of big 
company and small companies. But, you know, one thing that is 
wonderful about America--and we are all sitting here bemoaning 
the fact that budgets are tight--at the end of the day we are 
spending $11.5 billion in science and technology, and $63 
billion in research and development to develop new systems.
    That is a lot of money, and that will create a lot of 
inducement for companies to stay in the game. And if there are 
mergers, for someone else to come in from outside. You know, 
the Federal statutes are very, very clear that we have to 
compete whenever possible. We encourage competition: $63 
billion will buy a lot of competition. So I am not terribly 
worried yet. I haven't seen us get to the point, with very, 
very limited exceptions, of places where there isn't sufficient 
competition.
    We monitor it. One of my colleagues, Elana Broitman, who is 
the Deputy Assistant Secretary for Manufacturing and Industrial 
Base Policy, monitors that on a daily basis. Concerned, but I 
don't see anything breaking yet. Would anybody like to add 
something?
    Ms. Miller. So I will just jump in there real briefly 
because I saw everybody put their hand up. But what I was going 
to say is, one of the things that we are looking at, trying to 
implement, is more of an open architecture design on most of 
our new systems coming up. That open architecture itself allows 
for more competition. So instead of having a one industry 
taking--or one industrial contract taking place, with one 
person being the primary performer, we now have competition at 
the subsystem levels and we maintain that competition. And that 
is something that we believe will help us in the future.
    Mr. Langevin. I am going to stop there and go to my next 
question, if I could. Thank you for those answers. But in a 
recent Defense Science Board [DSB] report from October of last 
year, titled ``Technology and Innovation Enablers for 
Superiority in 2030,'' the board concluded that the opportunity 
for technological surprise is greatest for WMDs [weapons of 
mass destruction], and expressed concern about the ability to 
detect signatures associated with weapons of mass destruction, 
given the advancement of technologies that would reduce or even 
eliminate some of the signatures that we depend on today.
    The impacts of such a technological shift would be 
extremely grave in many regards. And the board proposed a 
particular course of action, focusing on so-called ``big data 
techniques,'' expressing the need for the Department to both 
work with, and head, commercial capabilities, but acknowledges 
the legal and privacy concerns associated with such an 
approach. Can you respond to that suggestion, as well as the 
underlying concern?
    Dr. Prabhakar. Thank you. I think that DSB report put its 
finger on something that is, in fact, an important concern: the 
access that terrorist organizations, for example, have to all 
kinds of globally available technology; certainly including 
weapons of mass destruction, or the tools to create weapons of 
mass destruction. We recently started a program at DARPA that 
is specifically aiming to see what we can do with new 
technologies to try to counter those kinds of threats. I think 
they are very, very challenging threats.
    And I agree with the DSB's report that--their comment about 
big data. I think that is a piece of the solution. The program 
that we have just launched is called SIGMA, and it is 
attempting to change the detector technology, but also figure 
out the networking and the big data approaches that it is going 
to take to really put a complete solution together to try to 
get us to a somewhat more safe environment.
    Mr. Langevin. Mr. Chairman, that is something we could 
follow up on a briefing that--if we could.
    Thank you for that answer. Does anybody else have anything 
on that? Okay, then I will--let me move to Dr. Walker and Dr. 
Shaffer. Last year, the Department of Defense completed a 
successful joint concept technology demonstration for the 
Counter-Electronics High Power Microwave Advanced Missile 
Project, or CHAMP. What plans are underway to continue this 
effort? What are the limitations of the current technology? And 
what issues might prevent wider fielding of these sorts of high 
powered microwave weapons?
    Dr. Walker. So the demonstration was really the first 
opportunity to go out and use a high powered microwave from a 
cruise missile-size vehicle and to show that it actually 
worked. However, it is still a large form factor for an 
aircraft. Really like to get down to a smaller missile size. So 
the S&T side of the world is continuing to fund work on 
reducing the size of the device, as well as to increase the 
power to the device to give you better penetration, longer 
distance to standoff, as well as multiple shots out of a single 
cruise missile.
    Really trying to get it down to a tactical missile form 
factor. In the meantime, in this year's budget request, the Air 
Force is requesting $5 million to initiate the analysis of 
alternatives on a non-kinetic weapon which would be--look at 
the CHAMP technology. The high powered microwave technology is 
one of the alternatives for how we go forward with a non-
kinetic weapon in the future.
    The Air Force has got, you know, severe constrictions on 
its modernization dollars, given all the things we have in our 
bucket right now. However, this is important enough that they 
were going to continue to moving forward, looking somewhere in 
the early 2020s as an opportunity to transition this type 
technology. The lab will continue developing the technology to 
ensure that when the Air Force is ready to move forward with 
the program that we have the smaller size system ready to go 
forward and the technology up to a level that it is really 
ready to enter an acquisition program.
    Mr. Langevin. Some of this, though, is policy-related, as I 
understand it. Because some of the high powered microwave 
technology is deployable right now, as I understand it. And 
there has been some resistance, particularly in the Army as I 
understand it, to deploying some of that technology.
    Dr. Walker. I can just say from the Air Force side, since 
we developed the antipersonnel high powered microwave 
technology that has been developed, it is available to go. It 
has been a policy decision not to deploy it so far.
    And I will hand that over to my colleagues.
    Mr. Shaffer. So I will start, and then let Ms. Miller talk. 
But I think it is very important to recognize that not all 
pulsed microwave or high powered microwave are the same types 
of systems. CHAMP was an incredible success. The program that 
the Army is looking at was a tremendous success, but they are 
totally different technologies. One is very, very short pulse, 
the other is continuous wave. There are policy implications 
about the deploying the ground-based high powered microwave and 
we are working through those.
    The CHAMP, I think, or the pulse microwave, we will have a 
weapons system sometime in the 2020s that will be exquisite. 
And no one else in the world will have it. But we do have to 
work the size and the thermal management of that system.
    But I think the really--and, you know, this--I shouldn't 
sound--I am going to sound like a geek. I think it is really 
cool that we finally got to the point where we demonstrated a 
capability and are on the pathway to deliver what we all grew 
up with as kids watching Buck Rogers employ.
    Mr. Langevin. Thank you. I just hope--and I will yield 
back, Mr. Chairman, in just a second. But I just want to say I 
hope that the policy decisions will be worked through 
aggressively so that it is not the policy that is holding back 
the deployment of the technology. Especially when it comes to 
keeping our troops safe, helping them be more effective. And, 
again, keeping the--ultimately, our country safer. Thank you.
    Mr. Chairman, I yield back.
    Mr. Thornberry. Well, I agree completely. And let me follow 
up. Who makes the policy decisions in this case? Is it the 
Department's policy shop, or someplace else? I mean, we have a 
technology, it is ready to be deployed. Policy decision says 
no, don't deployment--don't deploy it. Who makes that decision? 
Where do these issues get worked out?
    Mr. Shaffer. Sir, most of the time these things are led by 
our under secretary in policy, and we negotiate. We have a 
number of types of technology areas where we have to think 
about the policy implications. Autonomous platforms.
    Mr. Thornberry. Yes. I am just focused on this one, as an 
example.
    Mr. Shaffer. You know, can I take it for the record and get 
back to you?
    Mr. Thornberry. Yes.
    Mr. Shaffer. Because I don't have the exact----
    Mr. Thornberry. If you don't mind.
    Mr. Shaffer. Absolutely.
    [The information referred to can be found in the Appendix 
on page 151.]
    Mr. Thornberry. Because I would--it is an issue in and of 
itself. If we have a technology that there is a decision not to 
deploy it, it is--kind of hard to get our arms around exactly 
who--how that decision was made. But then, it is also an 
example of some others that we may want to pursue.
    Let me see if I can get in two more things right quick 
before we go vote, and y'all get to leave. All of this is about 
how much direct money investment we put into S&T. Obviously, we 
want the private sector to invest some of their own money in 
S&T along the way. Recently, the point was made to me that as 
long as we rely on lowest-cost technically acceptable contracts 
there is zero incentive for the private sector to put any of 
their own research into it.
    They don't want to have any discriminators. All you want to 
do is be good enough, and then just cut, cut, cut, cut on the 
cost so that you win the contract. And so what that does, in 
effect, is discourage innovation and discourage the private 
sector from using their money to make improvements. Do you 
think that is true?
    Mr. Shaffer. Sir, not only do I think it is true, it is one 
of the key principles and tenets under Mr. Kendall's Better 
Buying Power 2.0. And that is, to better define the use of 
LPTA, low price technically accepted--or technically acceptable 
contracts. He believes it is okay to let those types of 
contracts for activities like mowing the base grass. It is not 
okay when you are going out and trying to compete a technically 
acceptable--or a technology contract.
    He is aware of that. We are driving that out to the 
services. It will take time for people to recognize that. But I 
believe we have already made the change to move away from LPTA 
for technology--high-technology programs.
    Mr. Thornberry. Anybody else have a brief comment on----
    Admiral Klunder. I will just quickly say, Mr. Chairman, 
that if we are going to stay innovative, if we are truly going 
to leap ahead of our threats and our adversaries, you have got 
to get the performance. So I don't--we look for, obviously, 
game-changing affordability pieces when we bring that 
technology in. But I absolutely will not corrupt a contract to 
go low cost if I can't achieve the performance you and I need 
to defend this country.
    So at the end of the day, that is what we got to have, and 
we do. So I promise you that, our contracts, we look for the 
performance of the system first. Then we will look at how the 
affordability can come out and play in terms of our--I am not 
talking about contracts. I am talking about the cost-effect of 
the system, sir.
    Mr. Thornberry. I hear you. Okay.
    Dr. Walker. Yes. In the Air Force, one of the things we 
really focus on is that T-A-P, so that ``technically 
acceptable'' is a critical portion of that contracting 
mechanism. We have been working hard on trying to reenergize 
our engineering enterprise so we bring that technical 
confidence back so we can make that judgment. So that we really 
make the right decision and get the technology that we want, 
not just the lowest cost. So it is--the two pieces have to go 
together, but it is not necessarily the best contracting 
vehicle for technology.
    Mr. Thornberry. Yes, that word ``acceptable'' means you 
just kind of get good enough. I mean, that is what I hear. 
Rather than, oh, maybe with a little bit more you can--but 
something we may want to pursue. All right.
    Let me ask this. If you could invest in only one technology 
program, one area of technology, one issue area, and--within 
your service, or y'all have broader leeway, obviously, what 
would it be? You have to narrow it down, and right now you can 
only invest in one. Ma'am?
    Ms. Miller. I would invest in materials.
    Mr. Thornberry. Really?
    Ms. Miller. I would. I would tell you that the need to have 
new lightweight materials, affordable materials that can help 
us both in getting our power and energy uses down, getting our 
armor weights down, bringing down the soldier load, I mean it 
is kind of full spectrum. It covers, and is the underpinning of 
a lot of what we do. So I would say, for me, that is a big 
investment area.
    Mr. Thornberry. That is interesting. Thank you.
    Admiral Klunder. Well, Mr. Chairman, since I have already 
invested heavily in directed energy and railgun and undersea 
domain, I will tell you that the electromagnetic spectrum is 
the new one that we are working very hard on, sir, to make sure 
we understand, with my colleagues at DARPA, on how--and my 
other colleagues, how we can absolutely optimize that.
    Mr. Thornberry. Okay.
    Dr. Walker. Since the Army is investing in materials, and 
we have got the electromagnetic spectrum covered----
    [Laughter.]
    Dr. Walker. I would keep the investment in hypersonics as a 
key game-changer technology that we really need to move 
forward.
    Mr. Thornberry. Really? Some people think that is not going 
to go anywhere. But you--if you had--the Air Force had one area 
of--to invest in for S&T, that is what it would be.
    Dr. Walker. For given, right now, where we are, we are on 
the cusp of a breakthrough.
    Mr. Thornberry. Okay.
    Dr. Walker. Following X-51, I think there is a real 
opportunity to change warfighting with hypersonic capabilities.
    Mr. Thornberry. Interesting.
    Dr. Prabhakar.
    Dr. Prabhakar. Mr. Chairman, I am going to give you a DARPA 
answer.
    Mr. Thornberry. Ahh.
    Dr. Prabhakar. Which is that if we only invest in one we 
are just not going to get there. Because the problems that we 
are dealing with are actually too complex for any one silver 
bullet. And I think rethinking the entire systems approach is 
actually going to be central to this next generation of 
advanced military capabilities.
    Mr. Thornberry. Which may be an area in and of itself in 
which to invest. I mean, I--you know, we talk about--for 
example, with terrorism we talk about a--fighting a network 
with a network. We have to understand networks better in order 
to do that, and that--it--you know, it is not what we 
traditionally think of as investment in S&T. But maybe that is, 
you know, one----
    Dr. Prabhakar. You are completely right. And you are going 
to need all of these other pieces so that you got the pieces--
--
    Mr. Thornberry. Yes. No. I know you are right about that. 
But it is interesting.
    So, Mr. Shaffer, you got one?
    Mr. Shaffer. I actually do. I agree with Arati, I agree 
with all my colleagues. But I am a simple guy. At the end of 
the day our business is in defense of the homeland. I am more 
concerned about what can happen to the homeland through a cyber 
attack launched against the U.S. I would defend--or invest in 
cyber above all else just because of the potential gravity of 
that attack.
    Mr. Thornberry. Yes, yes. Fair point. All good answers.
    Thank you all very much for being here, for what you and 
your folks do for the country.
    With that, the hearing is adjourned.
    [Whereupon, at 4:07 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 26, 2014

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 26, 2014

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
   
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 26, 2014

=======================================================================

      
            RESPONSE TO QUESTION SUBMITTED BY MR. THORNBERRY

    Mr. Shaffer. In response to a December 2010 request by then-Vice 
Chairman of the Joint Chiefs of Staff, General Cartwright for a 
comprehensive review of directed energy (DE) policy, then-Under 
Secretary of Defense for Policy, James Miller, issued an interim policy 
memorandum on February 14, 2012. That memorandum recognized the 
operational benefits associated with currently fielded DE technologies 
and expressed support for continued development in accordance with our 
laws, treaty commitments, and policies. The policy requires OSD-level 
review and approval prior to the operational use of new directed energy 
weapons. The review and approval process (RAP) is now detailed in 
Chairman of the Joint Chiefs of Staff Manual (CJCSM) 3230.01, 
``Directed Energy Weapon Initial Operational Employment Review and 
Approval Process.'' The DE RAP requires and takes into account legal 
reviews, concepts of employment, rules of engagement, tactics, 
potential collateral damage and human effects, proposed public affairs 
guidance, and other relevant information. DE RAP requests are submitted 
by the combatant command; RAP-endorsed requests are to be forwarded to 
the Secretary of Defense (SecDef) for consideration and SecDef approval 
or forwarding to the President for approval as appropriate.   [See page 
23.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 26, 2014

=======================================================================

      
                 QUESTIONS SUBMITTED BY MR. THORNBERRY

    Mr. Thornberry. Recent media reports suggest we may lose more 
domestic microelectronics foundries. How will the Department ensure we 
have access to an assured trusted foundry?
    Mr. Shaffer. The U.S. Department of Defense (DOD) relies upon 
microelectronics for enabling components in our military systems. The 
Department depends upon access to a vibrant and innovative 
semiconductor industry and an assured supply of legacy components 
through a trusted supply chain. The Department is actively engaged in 
working with industry on initiatives that include the Trusted Supplier 
Accreditation Program and the Trusted Foundry Program, which combined 
are commonly labeled the Trusted Supply Program.
    The Trusted Supply Program, administered by the Defense 
Microelectronics Activity (DMEA), is a process of accreditation that 
ensures that developers of defense systems have access to trusted 
microelectronics components across a wide range of technologies, from 
state-of-the-art to state-of-the-practice to legacy. To satisfy the 
state-of-the-art semiconductor requirements, DOD worked with NSA's 
Trusted Access Program Office, in funding a contract with IBM to 
provide leading edge access to IBM's foundries. Trusted state-of-the-
practice (SOTP) technology suppliers are accredited for Trust by DMEA, 
according to established Trust criteria.
    Legacy components are transitioned out of production when the 
commercial market declines. DMEA has put in place a process to acquire 
intellectual property for technologies and processes when their 
commercial markets drop off. This allows the Department to provide a 
source of last resort capability at DMEA to produce small quantities of 
microelectronics parts when no commercial source is available.
    The DOD has a strategy to provide trusted and assured 
microelectronic parts throughout the chain of supply. Using the 
commercial industrial base, the DOD has in place the ability to access 
SOTA parts from the Trusted Foundry Program, SOTP parts from the 
trusted suppliers program, and legacy parts from DMEA when no longer 
available from industry.
    Mr. Thornberry. In your testimony, you mention an effort through 
the Defense Technical Information Center to improve our understanding 
of global technology development. Could you please describe that effort 
in a bit more detail?
    Mr. Shaffer. We are developing semi-automated Technology Watch and 
Horizon Scanning (TW/HS) capabilities to forecast the evolution of 
known science and technologies and their applications as well as the 
emergence of new concepts and technologies with disruptive potential. 
Thousands of companies are using business analytics methods to forecast 
events in their domains, including science and technology (S&T). 
Forecasting S&T is also of interest to many groups within the USG. In 
the TW/HS program, we are evaluating and leveraging existing 
approaches, tools, and data to detect the initiation of disruptive S&T 
advances as early as possible. Many existing approaches use only one 
type of data or use a purely data-driven approach and big data 
analytics to detect predictive trends. We are working to find, test, 
and implement theory-based models that use data in a meaningful way to 
forecast S&T trends and disruptions. We are working with the Defense 
Technical Information Center (DTIC) to deploy and test a system that 
provides an automated capability to identify signals that may be 
associated with disruptive S&T advances that have potential defense 
implications. The system can be used to monitor the evolution of known 
technologies, including the maturation of emerging technologies and new 
applications of existing technologies (technology watch), and the 
emergence of new scientific concepts and technologies with disruptive 
potential (horizon scanning). The TW/HS prototype comprises a computing 
architecture that supports multiple algorithmic analyses of varied 
types of input data, an illustrative end-user interface, and an initial 
method for system test and evaluation. The system analyzes indicators 
and predictors of technology breakthroughs and allows for the sharing 
of analysis results between multiple users. Feedback from users of the 
system may guide the development of a next-generation system. The 
current system is a prototype, whose development, test, and evaluation 
are expected to inform the development of a next-generation approach 
that will incorporate additional analytics methods and will be informed 
by a theory-based approach to technology forecasting.
    Mr. Thornberry. Part of our Defense Reform Initiative is to look at 
acquisition reform, and as part of that, we are interested in 
understanding how S&T supports the Department's goal of improving 
acquisition outcomes and meeting the guidance of the Better Buying 
Power 2.0 initiatives. Could each of you give us an example in each of 
your organizations of how you are applying S&T to these problems?
    Mr. Shaffer. Acquiring the weapon systems we need to outpace our 
adversaries requires not only a highly competent Science and Technology 
(S&T) community, but methods to effectively tap the community. The 
Assistant Secretary of Defense (Research & Engineering) (ASD (R&E)) has 
many programs and initiatives that reach out to the R&E enterprise and 
beyond to find and develop affordable weapon systems. These programs 
align well with several tenants of Better Buying Power (BBP) 2.0. BBP 
2.0 stresses the importance of seeking cost reductions throughout a 
product's lifecycle. ASD (R&E)'s Foreign Comparative Test (FCT) program 
searches the globe to find suitable and cost-effective solutions to 
warfighter needs. A primary focus of that search is for replacements to 
legacy systems and components that can no longer be affordably 
manufactured in the United States. For example, the FCT program 
uncovered an H-53 helicopter generator control unit used on a German 
version of the H-53 that was less expensive and more reliable than the 
legacy version. During the FCT's 33 year history, the DOD's $1.23 
billion investment has resulted in $10.9 billion in weapons systems 
procurements and an estimated cost avoidance of $7.6 billion. Several 
ASD (R&E) programs achieve affordability aims by reducing barriers to 
entry for innovative companies. The Innovation Outreach initiative 
provides a vehicle to identify sources of novel solutions. One such 
solution is the iTClamp, which provides medical first responders with 
an alternative to the tourniquet. iTClamp is a low cost (less than a 
$100) medical device able to constrain blood flow to the wound while 
rerouting blood to the far end of the wounded extremity, increasing the 
chance of saving the limb. Instant Eye is another solution uncovered by 
an ASD (R&E) program. Instant Eye is a small quad-copter, unmanned 
system that costs less than a $1,000, is field repairable, and can 
deliver real-time surveillance video to a tactical unit. BBP 2.0's 
emphasis on eliminating redundancy within warfighter portfolios 
inspired the CLOUDBREAK initiative. CLOUDBREAK's vision is to provide 
an easily accessible ``app store'' the combatant commands (CCMD) can 
use to acquire Command and Control (C2) solutions. Rather than each 
CCMD purchasing a custom solution, CLOUDBREAK provides a suite of 
solutions that can be inexpensively tailored to meet the needs of each 
user.
    Mr. Thornberry. Do the provisions contained within the SBIR 
Reauthorization Act contained within the FY 12 NDAA give you sufficient 
authority to ensure that SBIR funded technologies have an opportunity 
to transition to acquisition programs of record? Describe the DOD's 
plan to implement those provisions.
    Mr. Shaffer. Yes. As one initiative, we have added to DODI 5000.02, 
page 57, Table 2. Milestone and Phase Information Requirements the 
following: ``Program managers will establish goals for applying SBIR 
and STTR technologies in programs of record. For contracts with a value 
at or above $100 million, program managers will establish a goal for 
the transition of Phase III technologies in subcontracting plans, and 
report the number and dollar amount of contracts entered into for Phase 
III SBIR or STTR projects.''
    In addition, each major DOD acquisition program designates an 
individual who is (a) knowledgeable about the technology needs of the 
acquisition program and (b) responsible for technology infusion into 
the program, to serve as the program's SBIR Liaison. These Liaisons 
undertake to ensure that appropriate SBIR technologies are considered 
for acquisition programs.
    Mr. Thornberry. Each of the Services has described prototyping and 
requirements maturation processes to help support future acquisition 
programs. Why are those tools important? How do ensure technology 
transition for successful S&T initiatives to get them to acquisition 
program managers and program executive offices?
    Ms. Miller. Targeted technology maturation and prototyping has 
emerged as an overall area of emphasis within the Army's laboratories 
and research, development and engineering centers (RDECs). These 
activities help to better inform requirements for new systems, as well 
as drive down the risk of integrating new technologies, by 
demonstrating mature solutions that are technically achievable and 
affordable. In conducting maturation and prototyping earlier in the 
acquisition lifecycle, we can identify and address areas of risk before 
the government commits more significant levels of funding to a Program 
of Record (PoR). Ultimately, it is much more cost-effective to prove 
out innovative concepts and capabilities in Science and Technology 
(S&T) than it is under formal program acquisition.
    One example is the Army's Technology Maturation Initiative (TMI) 
(Program Element 0604115A) which aligns S&T and acquisition partners 
under a coordinated effort to prove out emerging, but needed, 
technology components and facilitate their transition to PoRs. It 
matures high-payoff S&T products beyond traditional S&T technology 
readiness levels in order to drive down acquisition costs and risks, 
and increase transition success.
    These efforts have become especially important as the Army heads 
into a funding downturn. We are planning to invest in technology 
maturation and prototyping efforts to prepare the Army to capitalize on 
S&T investments as we come out of the acquisition funding ``bathtub'' 
near the end of the decade. For Budget Activity 4 authorities, we are 
using these resources to target areas where acquisition programs 
intended to provide necessary capabilities have been delayed, such as 
assured Position, Navigation and Timing, the Future Infantry Fighting 
Vehicle, and Active Protection Systems.
    By engaging key stakeholders from the requirements, technology, 
acquisition and resourcing communities to select and oversee the 
Technology Maturation Initiative and other prototyping efforts, we are 
able to prioritize and coordinate efforts that will best enable the 
integration of innovative capabilities in to planned acquisition 
programs. In this way, these efforts directly support and apply the 
Army's 30-year acquisition planning construct.
    Mr. Thornberry. Part of our Defense Reform Initiative is to look at 
acquisition reform, and as part of that, we are interested in 
understanding how S&T supports the Department's goal of improving 
acquisition outcomes and meeting the guidance of the Better Buying 
Power 2.0 initiatives. Could each of you give us an example in each of 
your organizations of how you are applying S&T to these problems?
    Ms. Miller. One example is Army S&T's Technology Maturation 
Initiative (TMI) (Program Element 0604115A). Created in FY12, TMI 
developed a strategic partnership between S&T and the acquisition 
community to facilitate the transition of key technologies to Programs 
of Record and enables the Army to fulfill the risk-reduction goals laid 
out by the Weapons Systems Acquisition Reform Act (WSARA) and DODI 
5000.02. By engaging program managers early in the technology 
development process and collaboratively defining technology, 
performance goals and acceptance testing, we facilitate a more 
successful insertion of mature technology for emerging capabilities. 
Reaching technical maturity prior to integration reduces program risk 
and eliminates excess costs.
    Controlling costs throughout the product lifecycle is another area 
Army S&T is placing additional focus. By designing technologies with 
reliability and manufacturability in mind, we can reduce the cost and 
time associated with redesign when these technologies transition from 
the S&T domain into formal Programs of Record, resulting in lower 
developmental costs and potentially faster acquisition. The Army 
ManTech (Program Element 0708045A) investment develops and demonstrates 
manufacturing processes to enable producibility and affordability for 
emerging technologies and subsystems. For example, the Manufacturing of 
Flexible Electronics for Large Area Sensors project will develop the 
U.S. manufacturing base for large area flexible electronic sensor 
technology fabricated on plastic substrates. This will provide 
capability through the integration of light weight, rugged sensors into 
digital radiography panels for Soldier portable Explosive Ordinance 
Disposal inspection and forensics applications.
    Mr. Thornberry. Do the provisions contained within the SBIR 
Reauthorization Act contained within the FY 12 NDAA give you sufficient 
authority to ensure that SBIR funded technologies have an opportunity 
to transition to acquisition programs of record? Describe the DOD's 
plan to implement those provisions.
    Ms. Miller. The SBIR Reauthorization Act gives the Army sufficient 
authority to ensure that our SBIR funded technologies have the 
opportunity to transition. There are over 20 changes resulting from 
reauthorization. The key statutory language relevant to this discussion 
are:
    1) All acquisition programs must report where they are 
incorporating SBIR technologies as part of their subcontracting plan,
    2) DOD must set goals for SBIR inclusion in acquisition programs,
    3) DOD is authorized to incentivize Program Executive Offices and 
prime contractors for all awards greater than $100M to include SBIR 
technologies.
    While none of these changes have been fully implemented yet, the 
Army is participating in a SBIR Commercialization Working Group with 
the Department, and all DOD SBIR program managers create a model that 
sets the standard for transitioning SBIR developed technology. The 
reporting in item 1) above should be relatively straight-forward once 
incorporated into contract requirements. Setting goals is more 
challenging because in partnership with our sister Services we must 
first establish a baseline and then determine reasonable and meaningful 
metrics to measure transition performance for evaluation of 
effectiveness of the incentives. Item 3) is currently being evaluated 
by the Department for feasibility and approach.
    Mr. Thornberry. The Army recently completed successful testing of a 
High Energy Laser Mobile Demonstrator (HEL-MD). What is the Army's plan 
for developing and fielding directed energy weapons? What additional 
testing do you have planned for the HEL-MD system, and how will all of 
that testing fit into the Army's plans for a directed energy program of 
record?
    Ms. Miller. The recent demonstration was an interim demonstration 
of a High Energy Laser mobile platform capability against light mortars 
and Unmanned Aerial Systems (UASs). Additional development of the 
laser, beam control, power, thermal management, and fire control 
subsystems is planned along with additional incremental demonstrations 
using the laser-integrated mobile platform through FY22. The 
incremental demonstrations will validate 50kW Counter-Rockets Artillery 
and Mortars (C-RAM) and Counter-UAS (C-UAS) performance in FY17, 100kW 
C-RAM, C-UAS and Cruise Missile Defense performance in FY20, and a 
culminating demonstration of Integrated Force Protection Capability--
Increment 2 Intercept (IFPC-2I) level performance in FY22. These 
demonstrations will validate required performance and facilitate 
transition to a future increment of IFPC-2I with a planned technology 
insertion in the 2028-2032 timeframe.
    Mr. Thornberry. Each of the Services has described prototyping and 
requirements maturation processes to help support future acquisition 
programs. Why are those tools important? How do ensure technology 
transition for successful S&T initiatives to get them to acquisition 
program managers and program executive offices?
    Admiral Klunder. The Department of Navy (DoN) has a well-defined 
process for developing and transitioning new capabilities to future 
acquisition program called the Future Naval Capabilities (FNC) program. 
This process, initiated by the Navy and Marine Corps in 2002, continues 
to be refined in order to maintain alignment with DoN guidance and 
priorities. The FNC program uses a number of management tools and best 
practices that have a demonstrated record of success as confirmed by a 
recent GAO report (GAO-13-286, March 2013). These tools are important 
because they ensure DoN financial resources being expended on the 
development of demonstration prototypes and new innovative warfighting 
capabilities are fully aligned with senior Navy and Marine Corps 
leadership priorities. The selection of specific FNC S&T initiatives 
(Enabling Capabilities) follows a formal requirements-driven process 
that is governed by a set of signed business rules which are reviewed 
an updated roughly every two years to maintain currency. This 
documented process ensures that Navy & Marine Corps leadership are 
directly involved in the oversight, management and execution of the 
program during all phases of development. All funded S&T initiatives 
are competitively selected by a 3-star Technology Oversight Group 
(TOG), chartered by a (4-star level) DoN RDT&TE Corporate Board. TOG 
members represent the Requirements, Acquisition, S&T and Fleet/Forces 
communities of the Navy and Marine Corps. Each year the TOG releases an 
updated set of Technology Gaps that establish mission capability 
shortfall areas that can be traced back to the warfighting needs that 
have been independently assessed by the appropriate CNO and CMC 
assessment organizations. All FNC S&T initiatives link to an 
appropriate TOG Technology Gap and are managed by 1 of 9 Integrated 
Product Teams (IPTs). These IPTs are 2-star oversight boards that 
consist of Flag Officers/Senior Executive Service members representing 
the S&T, Acquisition, Navy and Marine Corps Resource/Requirements and 
Fleet Force Communities. The roles and responsibilities for each IPT 
member are defined in the FNC Business Rules, which are promulgated by 
the TOG. IPT Resource Sponsors, for example, have the responsibility to 
ensure that RDT&E resources are programmed to receive and integrate the 
FNC technology Products approved by the TOG. The IPT Acquisition 
Sponsor is responsible to ensure that Program of Record technology 
insertion windows are tracked and that S&T technology deliverables can 
be incorporated into their acquisition PORs as planned. By design, the 
process strengthens transition coordination between the fleet/force, 
S&T, acquisition and resources/requirements communities. The DoN 
process ensures successful FNC S&T initiatives transition to program 
executive offices and acquisition program mangers by focusing on the 
use of negotiated Technology Transition Agreements (TTAs). Each funded 
FNC S&T initiative is backed by a TTA that has been negotiated, agreed 
upon, and signed by appropriate managers within the Resources and 
Requirements community, establishing the requirements and providing 
funds for the acquisition PORs), the S&T community, (developing the 
technology solution and demonstration prototypes) and Acquisition 
community (transitioning the capability into an existing or emerging 
Program of Record). A critical aspect of this process is that DoN S&T 
funding is not released without an approved, signed TTA for each of 
these initiatives. Each of the TTAs are reviewed, updated and 
reaffirmed annually. This process ensures all parties involved in 
establishing the requirements, developing the solution, and 
transitioning that capability to the warfighter remain engaged 
throughout the development cycle. This process has proven to be highly 
successful.
    Mr. Thornberry. Part of our Defense Reform Initiative is to look at 
acquisition reform, and as part of that, we are interested in 
understanding how S&T supports the Department's goal of improving 
acquisition outcomes and meeting the guidance of the Better Buying 
Power 2.0 initiatives. Could each of you give us an example in each of 
your organizations of how you are applying S&T to these problems?
    Admiral Klunder. The Department of Navy (DoN) has a well-defined 
process which supports Better Buying Power 2.0 initiative. It is the 
Department's Manufacturing Technology (MANTECH) program which 
aggressively targets cost savings efforts in several major acquisition 
programs.
    One success story is the VIRGINIA Class Submarine (VCS) 
Affordability Initiative. Initiated in FY06 with a focus on acquisition 
cost savings, ManTech was a key contributor to the VIRGINIA Class cost 
reduction effort. ManTech, to date, has facilitated $27.75M per hull of 
realized cost savings.
    Navy ManTech is also making a significant impact on the F-35 Joint 
Strike Fighter (JSF) acquisition. Program Executive Office for JSF has 
credited Navy ManTech with over $700 million in savings for the 
Department of Defense purchase of F-35 aircraft for the current project 
portfolio. Example projects contributing to this savings include 
automated fiber placement for advanced F-35 materials projected to save 
$100 million and JSF canopy thermoforming automation projected to save 
between $75 and $125M depending on the number of spares produced over 
the life cycle.
    Mr. Thornberry. Do the provisions contained within the SBIR 
Reauthorization Act contained within the FY 12 NDAA give you sufficient 
authority to ensure that SBIR funded technologies have an opportunity 
to transition to acquisition programs of record? Describe the DOD's 
plan to implement those provisions.
    Admiral Klunder. Yes. Two sections in the Reauthorization Act 
increase our Small Business Innovation Research/Small Business 
Technology Transfer (SBIR/STTR) programs' authority regarding 
technology transition. Section 5121 increases the technical assistance 
we can provide to small businesses through commercialization experts in 
Phases I and II for both SBIR and STTR. Section 5141 dedicates an 
administrative funding pool to increased transition management support 
by government sources--in Department of the Navy's case, SBIR/STTR 
transition managers at program executive offices and acquisition 
program offices. A third provision--Section 5122--which mandates 
reporting on SBIR/STTR transition goals and performance metrics, is 
expected to further enhance our technology transition authority. 
Execution of Section 5122 awaits action by the Secretary of Defense's 
Office of Small Business Programs.
    Mr. Thornberry. What is the Air Force's plan for developing and 
fielding directed energy weapons? Is there currently a marquee Air 
Force directed energy program?
    Dr. Walker. The Air Force Science and Technology (S&T) Program has 
a well-defined plan for developing and demonstrating a wide range of 
technologies necessary to transition DEWs to the warfighter. The DEW 
technologies are expected to support various Air Force missions, such 
as counter electronics, aircraft self-protection, and air-to-air and 
air-to-ground engagements.
    For example, the Air Force is collaborating with DARPA and the 
Missile Defense Agency to develop laser and beam control technologies 
for a potential aircraft self-protection laser pod demonstration in the 
FY19 timeframe and an air-to-air defensive pod demonstration in the 
FY21 time frame. The Air Force is also working with the High Energy 
Laser Joint Technology Office and others to address the needs for a 
future air dominance demonstration. Key to this effort is our major 
activity addressing the aero-effects issues that have hampered previous 
airborne laser demonstrations.
    In the area of high power microwaves, the Air Force marquee S&T 
program, Counter-electronics High Power Microwave Advanced Missile 
Project (CHAMP), was a very successful Joint Capability Technology 
Demonstration (JCTD). Within S&T, the Air Force is addressing 
technologies for a more advanced version that will fit in smaller 
platforms.
    The Air Force is using results from this successful JCTD to inform 
an effort known as Non-Kinetic Counter Electronics (NKCE), which is 
currently in pre-Materiel Development Decision phase, and seeks to have 
a procured and operational weapon system to support requirements of 
Combatant Commanders in the mid-2020 time frame.
    Mr. Thornberry. Each of the Services has described prototyping and 
requirements maturation processes to help support future acquisition 
programs. Why are those tools important? How do ensure technology 
transition for successful S&T initiatives to get them to acquisition 
program managers and program executive offices?
    Dr. Walker. The Air Force's S&T investments develop technology-
based options and reduce the technical risks of current and future 
acquisition programs. To efficiently and effectively accomplish this, 
it is essential the requirements and acquisition communities 
collaboratively develop potential solutions to operational capability 
needs, and ensure that objective technical assessments of the viability 
and risks associated with these concepts are made available to inform 
requirements and acquisition decision points and milestones.
    An example of an initiative the Air Force is undertaking to achieve 
greater levels of early interaction between the operational users, 
acquisition centers, and technologists are Capability Collaboration 
Teams (CCT). CCTs are established by the Air Force Major Commands 
(MAJCOM) that have responsibility to organize, train, and equip the 
current and future Air Force. CCTs provide a method for the MAJCOMs 
[warfighters], the acquisition centers [acquirers], and the Air Force 
Research Laboratory [technologists] to integrate operational capability 
needs and requirements with acquisition priorities and technology 
options. CCTs work collaboratively to understand MAJCOM-documented 
capability needs that may require a materiel solution and determine if 
S&T is required for associated technology needs and then formulate 
potential S&T solutions (e.g., technology development, risk reduction, 
demonstration, or maturation projects) to address the identified S&T 
needs. In some cases, prototyping is useful to demonstrate potential 
capabilities in an operationally relevant environment to the 
warfighter. Prototyping supports risk reduction and maturation of 
technology by minimizing programmatic risks and reducing development 
cycle time. The result is that our S&T efforts will be scoped and 
structured to prove out high risk technologies necessary for a follow-
on acquisition program thereby reducing cost, schedule, and performance 
risks.
    Mr. Thornberry. Part of our Defense Reform Initiative is to look at 
acquisition reform, and as part of that, we are interested in 
understanding how S&T supports the Department's goal of improving 
acquisition outcomes and meeting the guidance of the Better Buying 
Power 2.0 initiatives. Could each of you give us an example in each of 
your organizations of how you are applying S&T to these problems?
    Dr. Walker. The Air Force's S&T investments develop technology-
based options and reduce the technical risks of current and future 
acquisition programs. As identified in the Better Buying Power 2.0 
initiative to control costs throughout the product lifecycle, it is 
essential the requirements and acquisition communities collaboratively 
develop potential solutions to operational capability needs, and ensure 
that objective technical assessments of the viability and risks 
associated with these concepts are made available to inform 
requirements and acquisition decision points and milestones. The Air 
Force continues to improve its S&T planning processes to build and 
solidify these effective and efficient relationships between our 
requirements and acquisition communities.
    An example of an initiative the Air Force is undertaking to achieve 
greater levels of early interaction between the operational users, 
acquisition centers, and technologists are Capability Collaboration 
Teams (CCT). CCTs are established by the Air Force Major Commands 
(MAJCOM) that have responsibility to organize, train, and equip the 
current and future Air Force. CCTs provide a method for the MAJCOMs 
[warfighters], the acquisition centers [acquirers], and the Air Force 
Research Laboratory [technologists] to integrate operational capability 
needs and requirements with acquisition priorities and technology 
options. CCTs work collaboratively to understand MAJCOM-documented 
capability needs that may require a materiel solution. CCTs determine 
if S&T is required and then formulate potential S&T solutions (e.g., 
technology development, risk reduction, demonstration, or maturation 
projects) to address the identified needs. Air Force S&T efforts are 
scoped and structured to prove out high risk technologies, which reduce 
the cost, schedule, and performance risks associated with follow-on 
acquisition programs.
    Mr. Thornberry. Do the provisions contained within the SBIR 
Reauthorization Act contained within the FY 12 NDAA give you sufficient 
authority to ensure that SBIR funded technologies have an opportunity 
to transition to acquisition programs of record? Describe the DOD's 
plan to implement those provisions.
    Dr. Walker. Yes. The provisions contained within the SBIR 
Reauthorization Act in the FY 12 NDAA give sufficient authority to 
transition SBIR funded technologies into acquisition programs of 
record. However, the availability of funds within most programs to 
support SBIR transitions are generally non-existent. A separate Program 
Element to focus exclusively on SBIR transition efforts would be 
difficult to justify, since efforts are often not selected until the 
year-of-execution. Obtaining authorities to use a portion of existing 
SBIR funds as a set-aside to support SBIR transitions would ensure the 
availability of monies to help the Air Force transition SBIR developed 
technologies into programs of record. The Air Force recommends 
obtaining the authority to use all or a portion of the increase in 
RDT&E SBIR assessments (2.5%-3.2%) on ``Phase III'' transition 
contracts. Current constraints only allow the use of SBIR funds to 
mature technology; this leaves the full burden of transition on the 
budgets of programs of record. Using a portion of the increased RDT&E 
SBIR expenditure assessment on Phase III contracts would enable a cost-
sharing environment and open the door for a dramatic increase in the 
transition of SBIR developed technologies.
    The Air Force continues to work with the Office of the Secretary of 
Defense and the other Services to implement the provisions of the SBIR/
STTR Reauthorization. For example, the Air Force has been updating and 
institutionalizing internal training programs to better educate 
existing and new small business contractors in order to increase their 
awareness and to solicit their early involvement. The Air Force has 
also been working with Defense Acquisition University to update 
defense-wide certifications and continuous learning opportunities. Both 
of these support an education goal to help change the culture by 
showing the added value of small business participation.
    Mr. Thornberry. Part of our Defense Reform Initiative is to look at 
acquisition reform, and as part of that, we are interested in 
understanding how S&T supports the Department's goal of improving 
acquisition outcomes and meeting the guidance of the Better Buying 
Power 2.0 initiatives. Could each of you give us an example in each of 
your organizations of how you are applying S&T to these problems?
    Dr. Prabhakar. Our role at the Defense Advanced Research Projects 
Agency (DARPA) is to make the pivotal early investments that change 
what is possible for breakthrough national security capabilities. Two 
examples include the Long Range Anti-Ship Missile (LRASM) and the 
Systems of Systems Integration Technology and Experimentation (SoSITE) 
programs.
    Long Range Anti-Ship Missile (LRASM):
    The LRASM program began in response to an urgent capability need 
identified by the Navy in 2008. The program objectives were to 
demonstrate a fully integrated tactically representative weapon system 
to address this capability gap as early as possible. Decomposing the 
urgent need in to technologies objectives, the LRASM program focused on 
reducing the dependence on intelligence, surveillance and 
reconnaissance (ISR) platforms, network links, and Global Positioning 
System (GPS) navigation in electronic warfare environments. Autonomous 
guidance algorithms will allow the LRASM to use less-precise target 
cueing data to pinpoint specific targets in the contested domain. The 
program also focuses on innovative terminal survivability approaches 
and precision lethality in the face of advanced counter measures.
    To accomplish this, the program office created a small, dedicated 
team that maintained a single focus of program execution comprised of 
government, Systems Engineering and Technical Assistance (SETA) 
contractors, Federally Funded Research and Development Centers, and 
Industry. A ``skunkworks'' mentality was adopted by all parties in 
order to maintain cost and schedule while attacking many high risk 
items. The program office met the rapid development objectives by 
conducting two flight demonstrations, each with resounding success. The 
LRASM successfully separated from the aircraft, navigated through a 
series of preplanned waypoints, and then transitioned to an autonomous 
mode while seeking the target it had been instructed to attack. The 
missile detected, identified, and tracked the mobile ship target at 
extended range; transitioned to guidance on the terminal sensor; and 
impacted the target with a miss distance well within acceptable error 
probabilities.
    With an empowered and unencumbered program manager and support 
staff, the DARPA team was able to streamline the decision making 
process by including the appropriate stakeholders as part of the effort 
rather than as external ``decision boards.'' By eliminating redundant 
processes and reviews, the Agency was able to reach out to the Services 
and inject synergy at the technical base level: LRASM was able to 
leverage the essential capabilities inherent in each Service to effect 
a dynamic demonstration. As a forcing element, the LRASM program was 
able to build a strong and lasting partnership with the Service 
requirements community, as well as the warfighting organizations at the 
initiation of the program. This provided a base capability that 
seamlessly flowed into the working requirements for the Offensive Anti-
Surface Warfare mission area. By providing a full-time requirements/
concept of operations SETA to work closely with the warfighter and the 
requirements community, there was a consolidated perspective during the 
definition and generation of requirements. This interaction at the 
initiating stages of the program (during the true Science and 
Technology phase) allowed early flow down of warfighter needs and 
system designs at inception and refinement of technological 
applicability. This allowed the LRASM program to better balance user 
needs within technology and cost constraints, as well as informing the 
warfighter of future capability and timeline availability.
    In light of the successful demonstrations and technical maturity of 
the system, the Office of the Secretary of Defense issued a Resource 
Management Directive to fully fund a rapid acquisition effort to field 
the LRASM on the B-1B in fiscal year 2018 and on the F/A-18 Hornet in 
fiscal year 2019. DARPA's early investment in requisite technologies 
enabled the Department of Defense to rapidly field a next generation 
capability to support the warfighter. In addition, these investments 
have significantly increased the state of the art, better positioning 
the accelerated acquisition effort to deliver on cost and schedule.
    System of Systems Integration Technology and Experimentation 
(SoSITE):
    DARPA has initiated the SoSITE program to develop the capability to 
operate low-cost, simpler platforms in cooperation with more capable 
platforms as integrated force structures. This approach enables the 
U.S. military to acquire the capabilities to maintain dominance over 
potential peer adversaries, who are investing in technologies to 
produce high-end systems in large quantities.
    DARPA is also developing supporting mission system technologies to 
make distributed architectures possible. These technologies include 
investments in adaptive communications and networking, autonomy, and 
command and control that contribute to interoperability. They promote 
rapid fielding of new systems and integration into the force structure, 
and control operational cost and complexity.
    DARPA is partnering closely with Service and Office of the 
Secretary of Defense (OSD) open architecture initiatives. Integration 
tools developed by SoSITE and other programs will facilitate 
streamlined application of open architectures to future acquisition 
programs and enable the expansion and adaptation of open architecture 
standards with a minimum of additional bureaucratic burden.
    The DARPA System of Systems strategy contributes directly to the 
goals of the Better Buying Power 2.0 initiative by:
    <bullet>  Enabling highly affordable weapon systems to achieve 
military effectiveness as part of an integrated architecture
    <bullet>  Providing the means to manage requirements across an 
architecture to help control costs of more capable platforms
    <bullet>  Providing tools to deploy complex architectures more 
efficiently, helping to control life-cycle operational costs
    <bullet>  Creating opportunities and competition at all tiers of 
the industrial base to encourage productivity and innovation
    <bullet>  Promoting wider adoption of open architecture standards 
and practices while minimizing bureaucratic burden.
    Mr. Thornberry. Do the provisions contained within the SBIR 
Reauthorization Act contained within the FY 12 NDAA give you sufficient 
authority to ensure that SBIR funded technologies have an opportunity 
to transition to acquisition programs of record? Describe the DOD's 
plan to implement those provisions.
    Dr. Prabhakar. DARPA defers to ASD(R&E), which is the lead for SBIR 
implementation.
    The ASD(R&E), Mr. Shaffer, states: Yes. As one initiative, we have 
added to DODI 5000.02, page 57, Table 2. Milestone and Phase 
Information Requirements the following: ``Program managers will 
establish goals for applying SBIR and STTR technologies in programs of 
record. For contracts with a value at or above $100 million, program 
managers will establish a goal for the transition of Phase III 
technologies in subcontracting plans, and report the number and dollar 
amount of contracts entered into for Phase III SBIR or STTR projects.''
    In addition, each major DOD acquisition program designates an 
individual who is (a) knowledgeable about the technology needs of the 
acquisition program and (b) responsible for technology infusion into 
the program, to serve as the program's SBIR Liaison. These Liaisons 
undertake to ensure that appropriate SBIR technologies are considered 
for acquisition programs.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. PETERS
    Mr.  Peters. Earlier this year, a number of leading research 
universities, including UC San Diego, UCLA, Stanford, and Cal Tech sent 
a letter to Secretary James and Under Secretary Kendall, expressing 
several significant concerns regarding the potential move of the Air 
Force Office of Scientific Research (AFOSR) from its current 
headquarters in Arlington, VA to the Wright-Patterson Air Force Base. 
[Letter available upon request.]
    I am concerned that a move to Wright-Patterson could lead to a 
change in the thrust of AFOSR's funding from basic research at 
universities to applied research at Air Force laboratories. This would 
jeopardize the many opportunities for innovation that are unique to the 
AFOSR-university partnership.
    Has the Air Force studied other circumstances where basic research 
program managers and operational personnel are located in the same 
facility? If so, what are the lessons from those experiences? If not, 
does the Air Force intend to undertake such studies prior to a final 
decision? Has the Air Force conducted an analysis to determine what, if 
any, safeguards should be put in place to ensure that AFOSR program 
managers will continue to address long-range, basic research and not be 
influenced by the immediate needs of lab personnel? Has the Air Force 
analyzed the benefits of having AFOSR in close proximity to the 
Pentagon, DARPA, the DNI, NSF and other research agencies, and how 
those benefits would be impacted by separating AFOSR geographically 
from these other agencies?
    Dr. Walker. The Air Force has decided not to relocate AFOSR to 
Wright-Patterson Air Force Base (WPAFB). This decision was reached 
after a deliberative process that included assessments of the cost of 
operation, risks to the basic research mission, and benefits to the 
basic research mission based on two potential courses of action (1. 
AFOSR remains in Ballston, VA and 2. AFOSR moves to WPAFB).
    The Commander of Air Force Materiel Command (AFMC) directed 
headquarters AFMC staff to complete a Cost Benefit Analysis (CBA) prior 
to taking any action. The Air Force determined the majority of savings 
identified in the CBA were the result of reduced support manpower and 
that some of these savings may be obtained in place. Additionally, 
preliminary findings identified risk to personnel skills and access to 
collaborators, such as NSF, DARPA, the Office of Naval Research, 
Department of Energy, National Institute of Standards and Technology, 
and NASA.
    The Air Force also developed a public Request for Information (RFI) 
to assess the impact of the location of AFOSR as perceived by the wider 
academic community. Based on these assessments, the Air Force decided 
to maintain AFOSR in its current Ballston, VA location.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
